AUDIT
              GPO’S TRAVEL PROGRAM
REPORT
05-04             September 30, 2005




         OFFICE OF INSPECTOR GENERAL
Contents

Executive Summary ….................................................................................i

Introduction ……………………………………………………………….1

Findings and Recommendations …………………………………………2

        Finding A. Personal Use of Government-Issued Travel Cards ……..2

        Finding B. Delinquent Travel Card Accounts ……………………....7

        Finding C. Controls Over Travel Advances………………………..10

        Finding D. Inconsistent Reimbursement of Travel Claims………...15

        Finding E. Other Matters Requiring Management’s Attention...…..19

Appendix A – Objectives, Scope, and Methodology.…………………...21

Appendix B – Travel Card Charges for Personal Use …………....…....23

Appendix C – Acronyms Used in the Report…………………….….…..29

Appendix D – Management’s Response ………………………………...30

Appendix E – Status of Recommendations ……………………………..35

Appendix F – Report Distribution ………………………………………36

Major Contributors to the Report ………………………………………37
                        GPO Office of Inspector General

Report Number 05-04                                                  September 30, 2005
 Assignment Number (160)

                               GPO’s Travel Program


                                 Executive Summary
Background. The GPO Office of Inspector General has completed an audit of the
Government Printing Office’s Travel Program. The GPO Travel Program is administered
by the Agency/Organization Program Coordinator who is assigned to the Cash
Management Services Section in the Office of the Chief Financial Officer. The
Agency/Organization Program Coordinator is responsible for issuing and tracking travel
orders as well as monitoring the usage of travel cards issued to GPO employees.

GPO’s policy is to follow the Federal Travel Regulations promulgated by the U.S.
General Services Administration, except in the most unusual of circumstances. GPO has
contracted with the Bank of America for GPO employees to be issued MasterCard travel
cards at no charge or interest fees. Each employee is billed directly and is personally
liable for all charges incurred with the card. GPO policy provides that travel cards are to
be used only for expenses incurred in conjunction with official travel.

During the first six months of Fiscal Year 2005, GPO issued a total of 34 travel advances
totaling $65,627, and processed 879 travel vouchers for travel with a total value of
approximately $459,000.

Objectives. The overall audit objective was to evaluate the effectiveness of GPO’s
Travel Program. The specific objectives were to determine whether: (1) adequate
controls exist over the issuance and processing of travel orders, travel advances, and
travel cards; (2) travel card usage is monitored to ensure the cards are used only for
official travel and that payments are timely; (3) only personnel with a legitimate need
have travel cards; and (4) travel claims and the repayment of travel advances are
processed timely and accurately. Appendix A contains further details on the audit
objectives, scope, and methodology.

Results of Audit. Management controls over GPO’s Travel Program can be
strengthened. Specifically, the audit identified that: (1) travel cards were not always
being used for purchases related to official travel (Finding A); (2) some GPO employees
in possession of travel cards were not always timely paying their outstanding balances
(Finding B); (3) travel advances were not always necessary, properly controlled or paid
back in a timely manner (Finding C); and (4) travel claims submitted by some GPO
employees were not reimbursed in accordance with the Federal Travel Regulations
(Finding D). The audit also identified other issues regarding the Travel Program that,
while requiring management’s attention, did not justify formal recommendations at this
time (Finding E).

Recommendations. A total of 10 recommendations are made to GPO management,
which, if implemented, will not only improve management controls over the Travel
Program, but will also ensure that official travel by GPO employees is accomplished in
the most cost-effective manner and in accordance with applicable GPO and Federal travel
policies and procedures.

Management’s Response. GPO Management concurred with each of the report’s ten
recommendations. Management will take actions to ensure that appropriate controls are
implemented to ensure that the GPO Travel Program including travel cards, is in
compliance with GPO and Federal travel policies and procedures.

Evaluation of Management’s Response. We consider management’s actions
responsive to each of the report’s recommendations.




                                           ii
Introduction

The GPO Travel Program is administered by the Agency/Organization Program
Coordinator (A/OPC) who is assigned to the Cash Management Services Section in the
Office of the Chief Financial Officer (CFO). The A/OPC is responsible for issuing and
tracking travel orders as well as monitoring the usage of travel cards issued to GPO
employees.

GPO Instruction 815.1C, “GPO Travel Regulations,” provides the policies, procedures,
and guidance to be followed by GPO employees when traveling for official business.
This instruction states that it is GPO policy to follow the Federal Travel Regulations
(FTR) promulgated by the U.S. General Services Administration, “except in the most
unusual of circumstances.” The CFO has been granted the authority by the Public Printer
to grant deviations from the FTR when appropriate and in GPO’s best interests.

The Travel Card Program was introduced to GPO in August 1984 in an effort to enable
GPO travelers to avoid having to use private funds for travel and to reduce the number
and amount of travel advances. Under this program, GPO has contracted with the Bank
of America (BoA) for GPO employees to be issued MasterCard travel cards at no charge
or interest fees. The employee is billed directly and is personally liable for all charges
incurred with the card. In accordance with GPO Instruction 815.3B, “Charge Cards
Issued for Travel and Transportation Expenses,” travel cards issued to GPO employees
shall be used for expenses incurred in conjunction with official travel. 1

GPO receives a quarterly rebate from BoA as a result of its employees using the
Government travel card. Between January 1, 2004, and March 31, 2005, GPO received a
total net rebate of $1,192. The amount of the rebate to GPO is reduced when employees
are delinquent in making payments on their travel card.

As of May 3, 2005, the A/OPC issued a total of 238 blanket 2 travel orders and 163 single
trip travel orders for GPO employees. During the first six months of Fiscal Year (FY)
2005, the Comptroller’s General Examination and Support Section processed 34 travel
advances totaling $65,627, and processed 879 travel vouchers for travel with a total value
of approximately $459,000.




1
  Section 301-51.2 of the FTR exempts the following from mandatory use of the travel card: (a) expenses
incurred at a vendor that does not accept the Government travel card; (b) laundry/dry cleaning; (c) parking;
(d) local transportation system; (e) taxi; (f) tips; (g) meals (when use of the card is impractical); (h) phone
calls (when a Government calling card is available for use in accordance with agency policy); (i) an
employee who has an application pending for the travel card; (j) individuals traveling on invitational travel;
(k) new appointees; (l) relocation allowances prescribed in Chapter 302 of this title, except en-route travel
and house hunting trip expenses; and (m) employees who travel 5 times or less a year.
2
  Blanket travel orders are typically issued for a specific time period to employees who travel frequently.
These orders negate the need for single trip travel orders for each individual trip an employee makes during
a specific time period.
Findings and Recommendations

Finding A. Personal Use of Government-Issued Travel Cards
GPO employees are not always making proper use of Government-issued travel cards.
Specifically, during the first six months of FY 2005, seven GPO employees used travel
cards for making purchases not related to expenses for official travel. In addition to
misusing their travel cards, six of the seven employees were also delinquent in paying the
balance on their cards. This situation has occurred because the A/OPC was not properly
monitoring monthly management reports of travel card activity provided by BoA. In
addition, the A/OPC did not have access to information identifying who in the Agency
was authorized to travel for official business during the time periods in question. As a
result, these seven GPO employees compiled 218 separate charges for approximately
$4,953 on their travel cards for personal purchases. Using the Government-issued travel
card for personal use is not only a violation of GPO policy, but also violates the
agreement signed by each employee when receiving the card, and results in the subject
employees receiving what is essentially an interest-free loan from BoA.

Guidance Related to Travel Cards

GPO Instruction 815.3B, “Charge Cards Issued for Travel and Transportation Expenses,”
January 27, 1999, prescribes the policies and procedures for the issuance and use of
contractor-issued travel cards authorized for GPO officials for the procurement of
passenger transportation services, payment to commercial facilities for subsistence
(lodging, meals, etc.), and miscellaneous travel and transportation expenses during
official travel. This instruction states that the employee shall use travel cards issued
under this program only for expenses incurred in conjunction with official travel. With
respect to travel card program monitoring, the instruction provides that the contractor will
submit monthly management reports to GPO that will be monitored to ensure that
employees adhere to the rules and regulations governing the use of the travel card, and
that any abuse of the system could result in the revocation of the employee’s card.

In addition to GPO Instruction 815.3B, the Credit Card Application Agreement signed by
each GPO employee receiving a travel card states:

       You agree to use the Card only for official travel and official travel related expenses away from
       your official station/duty station in accordance with your Agency/Organization policy. You agree
       not to use the Card for personal, family or household purposes.

Personal Use of Cards by GPO Employees

It appears that some GPO employees have utilized their Government-issued travel cards
for purposes other than official travel in noncompliance with not only GPO policies and
procedures, but also the application agreement signed by each employee. Our review of
BoA’s quarterly Transaction Activity Reports for the periods of October through
December 2004 and January through March 2005 identified that seven GPO employees
made a total of 218 charges for items of a personal nature and not related to official


                                                  2
Government travel. The grades and positions of the seven employees ranged from
Printing Office Grade (PG)-09 staff through PG-15 managers. No documentation in the
form of travel orders, travel vouchers, or memoranda from authorized officials was
available to indicate that these 218 questionable charges were incurred while on official
travel. Some examples of questionable uses of the travel card that we identified are as
follows:

    •   One employee, a PG-09, made a total of 106 purchases totaling $1,301.55 using
        the travel card, sometimes using the card multiple times on the same day. For
        example, on October 10, 2004, a Sunday, the employee used the card twice for
        charges of $8.00 and $10.00 at FedEx Field 3 in Landover, Maryland. On
        October 11, 2004 (a Federal holiday), the employee used the card a total of
        4 times including charges of $5.24 at a “Subway” and $4.07 at an “Exxon-Mobil”
        station in Alexandria, Virginia, and charges of $6.90 and $24.00 at an “Exxon-
        Mobil” station in Centerville, Virginia. On January 3, 2005, the employee used
        the card to charge purchases of $15.75 in Verona, Pennsylvania, $5.65 in Clyde,
        Ohio, and $13.85 in Maumee, Ohio. Two of these three uses of the travel card
        were at gasoline stations. This employee was not on official travel for GPO
        during any of these time periods.

    •   Another employee, a PG-11, made a total of 64 purchases totaling $1,574.67
        using the travel card. This employee’s use of the card included restaurants,
        gasoline stations, hotels and rental cars. This employee was not on official travel
        for GPO during any of these time periods.

    •   A PG-14 manager used the card a total of 10 times totaling $431.84 during the
        audit period, exclusively at restaurants in the greater Washington, D.C.
        metropolitan area, including three uses on weekend days. This employee was not
        on official travel for GPO during any of the time periods when the card was used.

In summary, we identified a total of 218 personal uses of the travel card for $4,953 by
seven employees during the period of October 1, 2004 through March 31, 2005. A
complete listing, by employee, of the 218 questionable charges is included in Appendix B
of the report. Although, arguably, not a significant dollar amount, these transactions
were clearly not incurred in conjunction with travel for official Government business.
Further, when questioned by their supervisors, the seven employees could not verify that
the charges were related to official Government travel. Use of the travel card in this
manner effectively results in the employee receiving an interest-free loan from BoA.




3
 FedEx Field in Landover, Maryland is where the Washington Redskins of the National Football League
play their home games. The Washington Redskins played a home game against the Baltimore Ravens on
October 10, 2004.


                                                  3
Program Activity Monitoring was not Performed

The misuse of the travel cards by some employees has been allowed to occur because the
A/OPC, responsible for administering the travel card program at GPO, was not reviewing
monthly management reports of travel card activity provided by BoA. The A/OPC stated
that the monthly BoA travel card reports were not reviewed during the first six months of
FY 2005 because of other priorities and insufficient manpower. Monthly review of the
BoA reports by the A/OPC could provide an effective control mechanism for ensuring
that travel cards are used in accordance with applicable policies and procedures.

In addition to not reviewing the monthly BoA management reports, the A/OPC did not
have access to information identifying who in the Agency was authorized to travel for
official business during the time periods in question. Of the seven employees who
improperly used their travel cards, five were in possession of blanket travel orders which
makes it difficult for the A/OPC to know if and when these employees traveled for
official business. Compiling a monthly report of all GPO employees on official travel,
although not currently required, would allow the A/OPC to compare the employees on
official travel with the charges identified on the monthly management report of travel
card usage provided by BoA. The OIG recommended such a control in Audit Report
01-05, “Report on Improving Controls over GPO’s Travel Program,” dated
June 12, 2001. Although GPO management, at the time, concurred with the
recommendation, such a report of monthly travel has apparently never been prepared.

Delinquent Accounts

To compound their misuse of the Government travel card, six of the seven employees
were also delinquent in paying off their monthly balance, resulting in their being
identified in the monthly BoA Delinquency reports. Five of the seven employees’ travel
cards were actually suspended by BoA, stopping these employees from using the card for
even official travel until their balance was paid in full. We discuss the issue of
delinquent accounts in more detail in Finding B of this report.

Potential Consequences of Travel Card Misuse

Although the GPO has no specific guidance for disciplining employees who misuse the
travel card, section 301-70.707 of the FTR states that “if one of your employees uses the
Government contractor-issued travel charge card for purposes other than official travel,
you may take appropriate disciplinary action.” The General Services Administration
(GSA), responsible for the Government-wide administration of the travel card program,
has developed guidance for agencies regarding disciplinary action for travel card misuse
in the GSA Smartpay A/OPC Survival Guide. This guidance, as detailed in the following
chart, is only suggested guidance for agencies. GPO should consider whether such
guidance is appropriate for Agency employees who misuse the travel cards. In the
interim, action should be taken to suspend the travel cards of those employees who have
been determined to have used their cards for purposes other than official travel.




                                            4
                       Sample Agency Travel Card Penalty Guide

   Type of Delinquency or            Penalty for First Offense        Penalty for Subsequent
          Misconduct                                                         Offenses
a. Unauthorized use of card          Suspension from work of 5               Removal
for other than official                   to 10 workdays
purposes (includes purchases
and ATM withdrawals less
than $500)
b. Unauthorized use of card in      Suspension from work of 15                Removal
excess of $500                         workdays to removal
c. Authorizing another to use                Removal                          Removal
the Cardholder’s card for an
unauthorized
purchase/withdrawal
Source: “GSA SmartPay A/OPC Survival Guide,” 2001, GSA Federal Supply Service, Services
         Acquisition Center

GPO should take action to ensure that Government-issued travel cards are used only for
their intended purpose. Failure to promptly address this situation could result in the
potential loss of public confidence in the GPO and its mission.


Recommendations, Management’s Response, and Evaluation of
Management’s Response
    1. The Chief Financial Officer should direct the A/OPC to review, on a monthly
       basis, BoA’s monthly management report of travel card activity to ensure that
       cards are being used exclusively for expenses related to official travel. Any
       indications of noncompliant activities should be immediately referred to the
       employee’s supervisor for appropriate action.

Management’s Response. Concur. A monthly report will be issued to Managing
Directors when non-compliant activities are suspected. A control log will be maintained
by the A/OPC indicating that this monthly procedure has been performed. The complete
text of management’s response is in Appendix D.

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

    2. The Chief Financial Officer should coordinate with appropriate GPO officials to
       compile a monthly report of all GPO employees on official travel and provide the
       report to the A/OPC to compare the employees on official travel with the charges




                                                5
       identified on the monthly management report of travel card usage provided by
       BoA to determine whether travel cards are being appropriately utilized.

Management’s Response. Concur. We are developing a reporting system for all
authorized travel (including blanket travel). The system is expected to be operational by
December 31, 2005 (see Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

   3. The Chief Financial Officer should take appropriate action to suspend the travel
      cards for those employees using the cards for purposes other than official
      Government travel.

Management’s Response. Concur. We are deactivating all inactive travel cards and
will prepare a memo to all cardholders reinforcing the proper use of travel cards (see
Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.




                                            6
Finding B. Delinquent Travel Card Accounts

GPO employees in possession of Government-issued travel cards did not always pay their
outstanding balances on the cards. Specifically, between December 1, 2004 and March
31, 2005, a total of 23 GPO employees had unpaid travel card account balances totaling
over $21,000 that were anywhere from 30 to 150 days delinquent. Delinquencies have
gone unreported and employees have not been held accountable because the A/OPC was
not properly monitoring BoA’s monthly delinquency reports which clearly identify those
employees with delinquent travel card accounts. A large number of delinquent accounts
not only negatively affects any rebate received by GPO for use of the travel cards, but, in
addition, if the card is cancelled or suspended, potentially affects the employee’s
availability to travel on official business, and ultimately the employee’s ability to perform
their job responsibilities.

Payment and Delinquency Procedures

GPO Instruction 815.3B, “Charge Cards Issued for Travel and Transportation Expenses,”
January 27, 1999, states that the travel card will be issued directly to the employee in
his/her name and that “It is the responsibility of the individual card holder to promptly
pay outstanding balances.” Employees with travel cards are personally liable for all
billed charges. Charges billed to the individual employee are due and payable in full
within 25 calendar days of the billing date. Extended or partial payment is not permitted.
For accounts that are delinquent past 60 days, the contractor, in consultation with the
GPO, may suspend travel card privileges until payment is made. The contractor also
submits monthly management reports to GPO that will be monitored to ensure that
employees adhere to the rules and regulations governing the use of the travel card. Any
abuse of the system could result in the revocation of the employee’s card.

The BoA Credit Card Application Agreement signed by each GPO employee receiving a
travel card states that:

        We will send statements of all charges to you. All payments are due by the due date specified on
        your statement.

        BoA may suspend your account and prohibit further charges if (i) payment for any undisputed
        principal amount is not received within 61 calendar days from the closing date on the statement in
        which the unpaid charge first appeared …

Delinquent Accounts

For the period of December 2004 through March 2005 4 , a total of 23 GPO employees
were identified by BoA on the monthly delinquency report. These 23 cardholder




4
 Monthly reports for the first 6 months of FY 2005 were not available on-line. Printed copies of the
monthly report were only available for December 2004 through March 2005.


                                                    7
      accounts contained over $21,000 in unpaid balances ranging from 30 to 150 days past
      due. As shown in the table below, the grades and positions of the employees ranged from
      PG-09 staff to Senior Level Service (SLS) Managers.

                                Employees on BoA’s Delinquency Reports
                                         (12/01/04 – 03/31/05)

       Employee                          30         60        90      120     150
No.     Grade           Status          days      days      days     days    days     Totals
 1    SLS                  -            $569.32        $0        $0      $0      $0    $569.32
 2    SLS                  -             989.72         0         0       0       0     989.72
 3    PG-15                -             325.47         0         0       0       0     325.47
 4    PG-15*          suspended          416.36    138.27         0       0       0     554.63
 5    PG-15*          suspended               0    462.20         0       0       0     462.20
 6    PG-15*          suspended          903.29     50.18         0       0       0     953.47
 7    PG-14*          cancelled        1,024.75    827.01         0       0 119.60    1,971.36
 8    PG-14                -           1,000.00         0         0       0       0   1,000.00
 9    PG-14*          suspended          268.36    188.81    141.96       0       0     599.13
10    PG-14                -           1,177.48         0         0       0       0   1,177.48
11    PG-13                -             634.87         0         0       0       0     634.87
12    PG-13                -             786.80         0         0       0       0     786.80
13    PG-13                -             240.37         0         0       0       0     240.37
14    PG-12*          suspended               0    518.84         0       0       0     518.84
15    PG-12*          suspended               0         0    523.38       0       0     523.38
16    PG-12*          suspended          337.15         0         0       0       0     337.15
17    PG-12*          suspended               0     50.00         0       0       0      50.00
18    PG-12*          suspended        1,283.95         0         0       0       0   1,283.95
19    PG-11*          suspended          429.79    580.33         0       0       0   1,010.12
20    PG-09*          suspended               0    229.49    659.85 348.45        0   1,237.79
21    PG-09*          suspended          577.72         0         0       0       0     577.72
22    PG-09                -             970.42         0         0       0       0     970.42
23    PG-09*          suspended        4,000.93    624.56         0       0       0   4,625.49
                                     $15,936.75 $3,669.69 $1,325.19 $348.45 $119.60 $21,399.68
      * These employees continued to be listed as delinquent in subsequent months.

      As shown in the table, of the 23 employees with delinquent accounts, 14 continued to be
      delinquent in the subsequent months. Under current operating procedures, after 61 days,
      the accounts are suspended by BoA and charging privileges revoked. If payment is
      subsequently made, the accounts are taken out of suspension and charging privileges are
      restored. After 75 days, the cardholder is assessed a $29 late fee with another $29 fee
      assessed each subsequent month thereafter. At 91 days, the account is revoked and
      cancelled and a request is made to offset the employee’s salary. After 210 days, the
      accounts are charged off by BoA and reported to the Credit Bureau.




                                                         8
Monitoring of Delinquent Accounts was not Performed

Delinquencies have gone unreported and employees have not been held accountable
because the A/OPC was not properly monitoring BoA’s monthly delinquency reports
which clearly identify those employees with delinquent travel card accounts. As stated in
Finding A, the A/OPC did not review BoA’s monthly delinquency reports during the first
6 months of FY 2005, because of other priorities and insufficient manpower. As a result,
14 of the 23 employees with delinquent travel card accounts continued to be listed in the
subsequent months.

Delinquent Accounts Could Affect GPO’s Mission

Continuing delinquencies without any corrective actions taken by GPO’s A/OPC or the
employees’ immediate supervisor increases the risk of additional unpaid balances
occurring in the future. Having a significant number (currently14%) of delinquent
accounts also affects the rebate received by GPO from BoA. In addition, if the card is
cancelled and revoked, the employee’s availability to travel on official business is
potentially compromised which could ultimately affect the GPO’s ability to accomplish
its mission. GPO should take more timely corrective actions on future employees
identified by the BoA as being delinquent


Recommendations, Management’s Response, and Evaluation of
Management’s Response
   4. The Chief Financial Officer should direct the A/OPC to review, on a monthly
      basis, BoA’s delinquency report on travel card activity to ensure that all
      delinquent employees are identified, and their supervisors promptly notified so
      that appropriate action can be taken.

Management’s Response. Concur. Starting with the October 2005 report, Managing
Director’s will be notified of travel card delinquencies. Appropriate action will be taken
if the condition persists. A control log will be maintained by the A/OPC indicating that
this monthly procedure has been performed (see Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.




                                             9
Finding C. Controls Over Travel Advances

Controls over management of travel advances need improvement. Specific problems
found include: (1) employees with Government-issued travel cards were obtaining travel
advances; (2) advances were sometimes approved a significant time before travel was to
occur; and (3) advances were not being repaid on a timely basis. This situation has
occurred because GPO has not developed detailed policies and procedures for
administering travel advances and has no system for identifying and collecting
outstanding travel advances. As a result, inadequate controls existed over $65,000 in
advances made to GPO employees during the first six months of FY 2005.

Travel Advance Guidance

GPO Instruction 815.3B, “GPO Travel Regulations,” states that GPO has contracted to
provide employees with travel cards to preclude the traveler from having to use private
funds and to reduce the incidence of travel advances.

The FTR, section 301-71.300 states that the use of cash travel advances should be
minimized. Section 301-71.302 states that when travel advances are issued, they should
be for a reasonable period not to exceed 45 days. Section 301-52.7 states that an
employee must submit a travel claim within five working days after completion of a trip
or period of travel.

Between October 1, 2004, and March 31, 2005, GPO issued 34 travel advances to
employees with a total value of $65,627. Our review of these advances identified various
issues related to controls over the advances as discussed in the following report sections.

Advances Made to Employees with Travel Cards

Four travel advances totaling $3,050 were issued to GPO employees with Government
travel cards.

                      Employees with Government Travel Cards

                     No.      Travel Advance        Travel Amount
                      1           #2002                      $1,200
                      2           #2003                         950
                      3           #2020                         700
                      4           #2025                         200
                                                             $3,050

When asked why employees with travel cards were receiving advances, the A/OPC stated
that two of the employees (advances #2003 and #2025) were approved in error and
should not have been issued. The employee who received advance #2003, for $950, also
charged a total of $2,244 on the travel card for the trip in question and was delinquent in
paying off the travel card balance. The employee that received $200 from travel advance


                                            10
#2025 also charged $1,048 on the travel card. As stated in GPO Instructions and the
FTR, the travel cards should preclude the need for issuing travel advances.

For the other two travel advances (#2002 and #2020), we were informed that GPO had an
unwritten policy that travel advances were authorized to employees traveling overseas,
even if they had a Government travel card. Both employees who received these advances
also charged $1,523 and $1,617 respectively on their travel cards. GPO should adopt
clear policies and procedures related to whether employees with Government-issued
travel cards are also eligible for receiving travel advances.

Advances Approved Well in Advance of Effective Date of Travel

In two instances, travel advances were approved and signed by the traveling employees’
immediate supervisors 1.5 and 3.5 months before the employees requested and received
the advance by signing the Standard Form 1038, “Advance of Funds Application and
Account.”

                            Pre-approved Travel Advances

            Travel       Travel          Supervisor       Employee        Months
    No.    Advance       Amount            Signed           Signed       Difference
     1      #2021            $236         09/29/04         11/15/04          1.5
     2      #2026             538         10/04/04         01/26/05          3.5
            Totals           $774

Neither supervisor could explain why their approvals were required such a significant
time in advance of their employee’s travel. In addition, the A/OPC was not aware of the
time differences between the request for an advance, the approval and the actual travel.
The lack of effective controls for travel advances could result in employees receiving
funds far in advance of a trip and using the advance for purposes other than travel.

Outstanding Advances not Repaid within 45 Days

Cash advances made to GPO employees were not always repaid within the 45-day period
specified by the FTR. Specifically, to pay back travel advances totaling $26,872,
18 GPO employees took, on average, 46 workdays to submit travel claims for
reimbursement, or significantly in excess of the five-day standard required by the FTR.
The table below shows each of the 18 employees and the difference in time between
when the travel was completed and the travel claim was submitted.




                                           11
            Untimely Submittal of Travel Vouchers with Travel Advances

                   Travel     Advance      Travel       Voucher      Workdays
          No.     Advance     Amount        Ends       Submitted     Submitted
           1       #2004        $3,516    10/26/04      06/29/05           168
           2       #2005         1,000    10/19/04      10/28/04             6
           3       #2006         3,192    10/30/04      12/02/04            22
           4       #2007         4,086    10/24/04      02/09/05            68
           5       #2008         2,616    10/31/04      07/13/05           177
           6       #2009         2,226    10/16/04      11/26/04            11
           7       #2010         3,840    10/26/04      11/12/04            10
           8       #2014           660    10/13/04      12/03/04            35
           9       #2015           660    10/12/04      10/20/04             7
          10       #2016           660    10/12/04      12/03/04            36
          11       #2018           396    10/20/04      11/15/04            17
          12       #2019         1,176    10/31/04      12/27/04            38
          13       #2020           700    11/12/04      11/22/04             6
          14       #2021           236    12/08/04      01/18/05            26
          15       #2026           538    02/09/05      04/06/05            40
          16       #2027           400    02/18/05      07/18/05           104
          17       #2029           570    02/25/05      03/09/05             9
          18       #2034           400    04/01/05      05/27/05            40
                   Totals      $26,872                  Average             46

To compound the problem of not timely paying off advances, 4 of the 18 employees
performed travel for press sheet inspections at a cost in excess of $10,000. Travel for
press sheet inspections is reimbursed to the GPO from customer agencies. In two of
these instances, the GPO employees took 168 and 177 days after the travel was
completed to submit travel claims. This ultimately resulted in not only the 45-day
standard for filing a claim being exceeded, but also in a delay in billing the customer
agency for reimbursement of the travel to the GPO. As of July 31, 2005, 3 of the 18
employees continue to have outstanding travel advance balances totaling $820.96.

We also identified three additional GPO employees with outstanding travel advances
totaling $1,507.84 from FY 2004 as shown in the table below.

                        Outstanding FY 2004 Travel Advances

                       Travel      Original      Payment       Outstanding
                No.   Advance      Amount         Issued        Amount
                 1     #6170           $100      05/18/04           $100.00
                 2     #6188          2,562      07/27/04             727.84
                 3     #6216            680      08/31/04             680.00
                       Totals                                      $1,507.84




                                            12
In March 2005, the Comptroller’s General Examination and Support Section took action
to notify the Chief, Cash Management Services about the status of these three advances.
Action has been taken on one of the three advances to obtain reimbursement of the
advance through payroll deductions.

Controls Over Travel Advances Need to be Strengthened

The CFO’s General Examination and Support Section provided documentation indicating
that only one of the 18 delinquent employees (in FY 2005) was contacted concerning late
submittal of travel claims and outstanding advances. This employee, with an outstanding
advance of $2,616, was contacted concerning the outstanding travel advance on February
10, 2005. When questioned about the failure to contact most employees with outstanding
travel advances, section personnel stated that they stopped maintaining a Travel Advance
Subsidiary Record in their section because it duplicated the General Ledger and Property
Section’s subsidiary record. The General Examination and Support Section should begin
to maintain their own subsidiary record of travel advances to ensure the prompt
processing of all travel advances outstanding in excess of 45 days.

Management needs to take prompt action to address the strengthening of controls over
travel advances. Consideration should be given to eliminating travel advances for
employees with travel cards and implementing the Automated Teller Machine (ATM)
feature of the travel cards for obtaining advances when needed.


Recommendations, Management’s Response, and Evaluation of
Management’s Response
   5. The Chief Financial Officer should develop procedures concerning the issuing,
      monitoring, and collecting of outstanding travel advances to include, at a
      minimum:

           a. guidelines for whether employees with Government-issued travel cards are
              also eligible to receive travel advances;

           b. timeframes for supervisory approval of travel advances related to actual
              travel dates;

           c. guidelines for identifying and notifying employees with outstanding travel
              advances.

Management’s Response. Concur. Guidelines for travel advances to employees with
travel cards were issued on February 1, 2005. Guidelines have been established that
travel advances cannot be released earlier than two weeks before the departure date. The
travel report being developed will better enable us to control outstanding travel advances
(see Appendix D).



                                            13
Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

   6. The Chief Financial Officer should reinstitute preparation of the General
      Examination and Support Section’s Travel Advance Subsidiary Record.

Management’s Response. Concur. The report of authorized travel will be used to
control travel advances (see Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.

   7. The Chief Financial Officer should consider eliminating travel advances for
      employees with travel cards and implementing the ATM feature of the travel
      cards for obtaining advances when needed.

Management’s Response. Concur. A policy was implemented on February 1, 2005 that
travel cardholders cannot obtain travel advances from GPO without the prior
authorization of the Chief Financial Officer. This policy will be reiterated with the
A/OPC. We will consider travel advances using the ATM feature of travel cards, but will
also consider the cost to administer this option and the potential risks as well (see
Appendix D).

Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation. The recommendation is resolved and dispositioned and is considered
closed for reporting purposes.

   8. The Chief Financial Officer should coordinate with the Managing Director,
      Customer Services, to expedite processing of travel vouchers with travel advances
      on press sheet inspections to allow for more timely billing of customer agencies
      for reimbursement.

Management’s Response. Concur. The Director, Program and Operations Management
Office, Customer Services, will coordinate with the Controller, Customer Services
Division to ensure timely submission of all travel vouchers in order to ensure timely
billing of customer agencies. In addition, Customer Services is exploring the possibility
of using an electronic-mail notification system to facilitate implementation of this
recommendation (see Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.




                                           14
Finding D. Inconsistent Reimbursement of Travel Claims
Travel claims submitted by some GPO employees were not reimbursed in accordance
with the FTR. This situation primarily occurred because voucher examiners and the
A/OPC have not been trained on the requirements of the FTR. As a result, GPO
employees have received reimbursement for claims in excess of those allowed or in some
cases not allowed by the FTR.

FTR Details Reimbursement Policy for Travel Claims

GPO Instruction 815.1C, “GPO Travel Regulations,” provides the policies, procedures,
and guidance to be followed by GPO employees when traveling for official business.
This instruction states that it is GPO policy to follow the FTR, except in the most unusual
of circumstances. The CFO has been granted the authority by the Public Printer to grant
deviations from the FTR when appropriate and in GPO’s best interests.

Reimbursement in Excess of FTR Allowances

While conducting the audit, we noticed several incidences where inconsistent
reimbursements of travel claims were made. This resulted in some GPO employees
receiving excess reimbursement for travel or reimbursement for unallowable claims.
Some examples of these inconsistencies are discussed in the following sections.

Travel to Hot Springs, Arkansas by Seven GPO Employees

Travel to Hot Springs, Arkansas by seven GPO employees in February 2005 for two days
resulted in an overpayment of Meals and Incidental Expenses (M&IE) by $394.57. This
overpayment of M&IE occurred because one GPO employee submitted a claim of $529
for himself and the other six employees for a meal charged to his Government travel card.

After reviewing the travel voucher, the voucher examiner from the Comptroller’s General
Examination and Support Section questioned the A/OPC about this unusual request. The
A/OPC replied that the employee submitting the claim was entitled to 300 percent of the
M&IE of $35 for Hot Springs or a total of $105. This interpretation was in accordance
with Section 301-11.303 of the FTR which states that the maximum amount that you may
be reimbursed under actual expense is limited to 300 percent (rounded to the next higher
dollar) of the applicable maximum per diem rate. Nevertheless, the employee was
improperly reimbursed for the entire claim of $529.

To compound this improper claim and reimbursement, five of the other six employees on
the trip submitted travel vouchers claiming varying amounts for M&IE expenses on the
same days. The varying amounts claimed were approved by the voucher examiners




                                            15
and the employees were paid. The tables below detail the actual M&IE expenses claimed
as compared to the M&IE expenses authorized and how the various claims for the same
meal resulted in overpayments.

                                 Hot Springs Trip Travel Vouchers
                                       M&IE Actually Claimed
                                  Left                                                         Arrive
                               Residence               M&IE                                   Residence
     No.     Employee          02/15/05    02/15/05   02/16/05    Totals                      02/16/05
      1        SLS              7:30 am      $529.32     $26.25   $555.57                      8:30 pm
      2        SLS              8:29 am        11.00      29.25 5   40.25                      9:45 pm
      3        SLS              8:00 am         0.00        0.00     0.00                      7:40 pm
      4       PG-09             8:00 am        26.25      35.00 6   61.25                      9:30 pm
      5       PG-14             6:30 am         0.00        0.00     0.00                      8:35 pm
      6       PG-09 7
      7       PG-14             8:00 am             26.25           26.25          52.50        7:00 pm
    Totals                                        $592.82         $116.75        $709.57

As shown in the preceding table, the total M&IE claimed for this trip by the employees
was $709.57, including one individual’s claim of $555.57 (including a charge of
$529.32). The following table shows the M&IE that was authorized per the FTR.

                                            Authorized M&IE
                                  Left                                                         Arrive
                               Residence                         M&IE                         Residence
     No.     Employee          02/15/05         02/15/05        02/16/05        Totals        02/16/05
      1        SLS              7:30 am            $26.25          $26.25        $52.50        8:30 pm
      2        SLS              8:29 am             26.25           26.25         52.50        9:45 pm
      3        SLS              8:00 am             26.25           26.25         52.50        7:40 pm
      4       PG-09             8:00 am             26.25           26.25         52.50        9:30 pm
      5       PG-14             6:30 am             26.25           26.25         52.50        8:35 pm
      6       PG-09
      7       PG-14             8:00 am             26.25           26.25          52.50        7:00 pm
    Totals                                        $157.50         $157.50        $315.00


Had the authorized M&IE rate of 26.25 ($35 X 75% for each day) been claimed, the total
payment for the six employees that submitted claims would have been $315, resulting in
a difference (overpayment) of $394.57 ($709.57 - $315). Although three GPO



5
  Employee incorrectly claimed Little Rock, Arkansas M&IE rate of $39 a day ($39 x 75% = $29.25),
instead of the Hot Springs M&IE rate of $35 ($35 x 75% = $26.25).
6
  Employee incorrectly claimed the full M&IE rate of $35 for the second and last day of the trip instead of
75% or $26.25.
7
  Employee had not submitted a travel voucher at the time of the audit.


                                                    16
employees were entitled to actual expenses, such expenses cannot exceed 300 percent of
the applicable M&IE rate. At a minimum, the applicable rules required that the $529.32
claim for reimbursement should have been limited to $105.

Payment for Duplicate POV Expenses Approved on Press Sheet Inspections

In another example, over the past 12 months, a Customer Services employee submitted
15 different claims and received reimbursement for transportation expenses in excess of
those actually incurred in the use of the employee’s privately owned vehicle (POV)
during press sheet inspections. In each case, the employee claimed mileage and sought
gasoline reimbursement, resulting in an overpayment of $506.82 to the employee and the
over billing to GPO’s customer agencies by the same amount. Details of each transaction
are provided in the following chart.

                Duplicate POV Expenses (Mileage and Gasoline) Claimed

    Claim    Voucher        Date         Miles          Rate    Allowance          Gas      Total
      1       2072        07/28/04           17          $.375       $6.38         $20.00    $26.38
      2       2183        08/13/04         120            .375       45.00          33.40     78.40
      3       2298        08/19/04           32           .375       12.00          20.00     32.00
      4       2312        09/14/04         245            .375       91.88          35.01    126.89
              2312        09/20/04         285            .375      106.88          35.00    141.88
      5       0302        09/30/04           48           .375       18.00          20.02     38.02
      6       0479        12/08/04         226            .375       84.75          33.00    117.75
              0479        12/10/04         226            .375       84.75          33.00    117.75
     7        0822        12/13/04           24           .375        9.00          20.00     29.00
     8        0867        02/16/05           10           .405        4.05          10.00     14.05
     9        0876        02/22/05           35           .405       14.18          27.16     41.34
     10       1161        03/03/05           20          .415 8       8.10          20.00     28.10
                                                              9
              1161        04/26/05         360           .415       149.00          36.42    185.42
                                                             10
     11       1233        05/04/05         360          .415        149.40          33.99    183.39
     12       1522        06/19/05           15           .405        6.08          15.00     21.08
     13       1587        06/08/05           28           .405       11.34          30.00     41.34
              1587        06/20/05           70           .405       28.35          10.00     38.35
     14       1634        07/19/05           15           .405        6.08          10.00     16.08
     15       1825        08/05/05           60           .405       24.30          39.82     64.12
              1825        08/12/05         270            .405      109.35          25.00    134.35
    Totals                                                         $968.87        $506.82 $1,475.69



8
  The Voucher Examiner identified the error in the mileage rate claimed, which should have been .405, and
reduced the allowance from $8.30 to $8.10.
9
  The Voucher Examiner identified the error in the mileage rate claimed, but incorrectly reduced the
allowance from $149.40 to $149.00. The reduction should have been to $145.80.
10
   The Voucher Examiner did not identify the error in the mileage rate claimed resulting in an overpayment
of $3.60.


                                                   17
According to section 301-10.303 of the FTR, reimbursement for use of a POV is limited
to the applicable mileage rate. Section 301-10.304 states that gasoline is a non-
reimbursable expense which is included in the mileage allowance. As shown in the chart,
this employee received over $500 in reimbursement for transportation expenses to which
the employee was not entitled. Management should seek recovery of the amounts
improperly reimbursed.

Training on FTR Requirements Needed

Inconsistent payments for travel claims have likely occurred because neither the A/OPC
or travel voucher examiners have been trained on the requirements of the FTR. Since
GPO has elected to follow the FTR, personnel responsible for interpreting its
requirements and approving claims for payment should be properly trained.


Recommendations, Management’s Response, and Evaluation of
Management’s Response
   9. The Chief Financial Officer should mandate appropriate training on the
      requirements of the FTR for personnel, including the A/OPC and voucher
      examiners, responsible for reviewing and approving travel claims.

Management’s Response. Concur. In March and July 2005, Finance and
Administration and Workforce Development co-sponsored a GSA training class,
“Temporary Duty Travel – Federal Travel Regulation.” Approximately 40 GPO travel
assistants attended these classes. Periodic training classes for employees new to this role
as well as on-line refresher classes will be held (see Appendix D).

Evaluation of Management’s Response. Management’s actions are responsive to the
recommendation. The recommendation is resolved and dispositioned and is considered
closed for reporting purposes.

   10. The Chief Financial Officer should seek recovery of any funds improperly
       reimbursed.

Management’s Response. Concur. Travel vouchers have been reviewed for the
identified employee to determine the total amount of improper claim and overpayment.
Additionally, other traveler’s vouchers are being reviewed for improper claims. Barring
delays, such as a “Waiver of Claim” request by the travelers, we expect to collect from
employees by December 31, 2005 (see Appendix D).

Evaluation of Management’s Response. Management’s planned actions are responsive
to the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.




                                            18
Finding E. Other Matters Requiring Management’s Attention
The following issues related to the GPO Travel Program were identified during the audit
and are provided for management’s attention and appropriate action.

•   State Tax Exemption. A review of travel vouchers processed in FY 2005 showed
    that GPO employees on official travel did not always take advantage of the tax
    exemption on state taxes available to Federal employees at participating hotels. GPO
    employees should be encouraged to use the Federal Tax-Exempt certificate to the
    extent practicable when traveling on official government business in order to
    maximize potential cost savings to GPO.

•   Outdated Employee Information. Updating GPO employee information with BoA
    on a periodic basis could help improve the accuracy of travel card reports, which
    provide an important control for effectively monitoring travel card accounts. During
    the audit, we compared BoA’s travel card listing of May 6, 2005, and the travel log
    list of May 3, 2005, to GPO’s employee list of May 9, 2005, and found numerous
    discrepancies with employees assigned cost codes. GPO’s A/OPC recognized that
    GPO has undergone numerous reorganizations in the past few years including
    reassignment of employees and changes to names of departments and that BoA
    records had not been kept up to date.

•   Local Travel Expenses. During the audit, we identified several travel vouchers
    processed under travel code 2110 (travel for investigations, inspections, and staff
    visits not chargeable to a jacket) and processed through the Comptroller’s General
    Examination and Support Section for dollar amounts significantly less than $100.
    With an estimated cost of $50 to process a voucher and issue a check, management
    should consider processing travel vouchers for travel where there is no overnight stay
    through GPO’s Disbursing window as “Local Travel.”

•   Travel Voucher Discrepancies. While reviewing travel vouchers processed under
    travel code 2110, we identified a significant number of discrepancies related to
    claimed and allowed expenses. Although not a significant dollar amount, these
    discrepancies resulted in some employees being overpaid and some being underpaid
    for expenses related to official travel. The types of discrepancies noted included,
    among others, incorrect M&IE rate used for the city to which travel was performed,
    lodging costs in excess of those allowed, incorrect calculation of first and last day of
    trip’s M&IE, incorrect mileage reimbursement rates, and unauthorized expenses and
    tips reimbursed.




                                             19
•   BoA’s Quarterly Rebates. BoA’s quarterly rebates (totaling over $43,000 since
    April 1, 2004) from the use of the travel card, purchase card, and the fleet cards were
    deposited into a miscellaneous GPO account. As a result, GPO management officials
    were unable to determine whether and when the rebates were received, and for how
    much by each type of card. A separate account should be established for each card
    for future tracking purposes.

•   Blanket Travel Orders. Of the 238 blanket travel orders issued in FY 2005 (as of
    May 3, 2005), only 125 or 53 percent were issued to GPO employees possessing a
    Government travel card. If blanket travel orders are issued to employees who are
    expected to travel on a regular basis, employees with blanket orders should also have
    a Government travel card, in order to make official travel easier for the employee and
    to maximize the travel card rebate to GPO.

•   Press Sheet Inspections. Travel related to press sheet inspections was not being
    charged to customer agencies. During the course of the audit, we identified four
    travel vouchers submitted for claims in the amount of approximately $950 related to
    press sheet inspections that were inappropriately charged to travel code 2110, “travel
    for investigations, inspections, and staff visits not chargeable to a jacket” when they
    should have been charged to travel code 2112, “travel for investigations, inspections,
    and staff visits - charged to a jacket.” Charging these vouchers to 2112 would allow
    the GPO to be reimbursed for these expenses by the customer agencies.

•   Travel Voucher Approvals. We identified employees who were approving their
    own travel vouchers. Specifically, two GPO employees (SLS and a PG-13) approved
    their travel vouchers on October 4, 2004, for $301.66 (SLS); on April 26, 2005, for
    $296.33 (SLS); and on October 13, 2004, for $517.50 (PG-13); respectively, contrary
    to Section 301-71.200 of the FTR which requires that the supervisor of the traveler
    must review and sign travel claims to confirm the authorized travel.

•   A/OPC of Travel Card Not Recognized by BoA. The BoA incorrectly recognizes
    the Customer Services employee responsible for GPO’s Purchase Cards as the
    A/OPC for GPO’s Travel Cards. As a result, the Customer Services employee has
    access to confidential information and data on GPO’s travel cards.




                                            20
             Appendix A. Objectives, Scope, and Methodology

Objectives

The overall audit objective was to evaluate the effectiveness of GPO’s Travel Program.
The specific objectives were to determine whether:

       (1) adequate controls exist over the issuance and processing of travel orders,
           travel advances, and travel cards;

       (2) travel card usage is monitored to ensure the cards are used only for official
           travel and that payments are timely;

       (3) only personnel with a proper need have travel cards; and

       (4) travel claims and the repayment of travel advances are processed timely and
           accurately.

Scope and Methodology

To accomplish our audit objectives, we judgmentally selected a sample and reviewed in
detail each of the following items:

       •   All travel advances that were processed in the first six months of FY 2005;
       •   All travel vouchers for press sheet inspections that were processed in the first
           six months of FY 2005;
       •   All travel vouchers processed in the first six months of FY 2005;
       •   All blanket travel orders and single-trip travel orders for FY 2005 (as of
           May 3, 2005);
       •   All invitational travel orders and travel vouchers that were submitted from
           potential employees participating in job interviews with GPO officials for
           FY 2005 (as of May 31, 2005).

We also reviewed monthly management reports from BoA related to travel cards. These
reports were reviewed to identify whether there were delinquent accounts or whether
employees were using the cards for purposes other than official travel. After identifying
transactions of potential personal use, we reviewed travel vouchers and travel orders to
determine whether the employee in question was on official travel during the time period
in question. We then followed up with the employee’s supervisor to determine whether
there was any justification other than travel for the card’s use.

We also interviewed the A/OPC and voucher examiners to determine whether policies
and procedures related to the Travel Program were being implemented and followed.




                                            21
                                                                           Appendix A

Management Controls Reviewed

We reviewed management controls related to the Travel Program at GPO including those
over the issuance and use of Government Travel Cards. The significant management
controls related to travel at the GPO are contained in GPO Instruction 815.1C, “GPO
Travel Regulations,” the FTR promulgated by the U.S. General Services Administration,
and the Credit Card Application Agreement signed by each GPO employee receiving a
travel card.

The audit identified several management control weaknesses which are detailed in the
findings and recommendations section of the report.


Audit Field Work

We performed field work from April through August 2005 at the GPO Central Office in
Washington, D.C. We performed the audit in accordance with generally accepted
government auditing standards.




                                          22
                  Appendix B. Travel Card Charges for Personal Use

                        October 1, 2004 through March 31, 2005

Employee/          Travel Card Charges Incurred              Merchant                Sub
 Office                                                       Name        Amount     Total
             No.       Date        City          State
1. (PG-15)    1      12/06/04    Washington       DC      Corner Bakery   $140.00   $140.00
   Plant
Operations

2. (PG-14)    1      10/19/04   Bowie                MD   Crown            $50.02
Customer      2      10/22/04   Silver Spring        MD   7-Eleven          39.00
 Services     3      10/24/04   Washington           DC   ExxonMobil        52.94
              4      10/26/04   Washington           DC   Amoco             45.00
              5      10/30/04   Washington           DC   Hess              45.01
              6      11/03/04   Capitol Hgts         MD   Shell Oil         50.00
              7      11/12/04   Washington           DC   ExxonMobil        48.80
              8      11/26/04   Brandywine           MD   Wawa              41.00
              9      11/29/04   Temple Hills         MD   7-Eleven          46.35
             10      12/02/04   Washington           DC   ExxonMobil        40.16
             11      12/08/04   Clinton              MD   ExxonMobil        46.00
             12      12/13/04   Temple Hills         MD   7-Eleven          46.35
             13      12/17/04   Capitol Hgts         MD   Shell Oil         48.50
             14      02/06/05   Brandywine           MD   Wawa              31.30
             15      02/10/05   Capitol Hgts         MD   Shell Oil         42.00
             16      02/13/05   Brandywine           MD   Wawa              39.00
             17      02/16/05   District             MD   ExxonMobil        39.30
             18      02/19/05   Washington           DC   Hess              36.50
             19      02/22/05   Washington           DC   Amoco             36.15
             20      02/26/05   Brandywine           MD   Wawa              38.50
             21      03/02/05   Capitol Hgts         MD   Shell Oil         45.57
             22      03/04/05   Brandywine           MD   Wawa              20.60
             23      03/08/05   Wintergreen          VA   Wintergreen      164.20   $1,092.25




                                                23
                                                                        Appendix B

Employee/           Travel Card Charges Incurred            Merchant             Sub
   Office     No.       Date        City       State           Name    Amount    Total
 3. (PG-14)    1      10/07/04 Alexandria        VA       Hops          $75.00
    Cash       2      10/08/04 Silver Spring    MD        Macaroni       65.00
Management     3      10/16/04 Silver Spring    MD        Austin Gr      22.68
  Services     4      11/12/04 Silver Spring    MD        Macaroni       64.00
               5      12/03/04 Silver Spring    MD        Macaroni       56.93
               6      01/20/05 Germantown       MD        Ruby Tue       50.37
               7      02/14/05 Washington        DC       Mocha Hut      20.99
               8      02/18/05 Silver Spring    MD        Red Lobst      25.72
               9      03/06/05 Silver Spring    MD        Red Lobst      23.08
              10      03/25/05 Silver Spring    MD        Red Lobst      28.07   $431.84

4. (PG-14)     1      10/01/04   Woodbridge          NJ   Sunoco        $21.50
Customer       2      10/12/04   Wall                NJ   Wawa           19.10
 Services      3      10/20/04   Jersey City         NJ   Shell          19.70
               4      10/21/04   Waterloo            NY   Sunoco         27.74
               5      10/22/04   Lafayette           NY   Sunoco         27.01
               6      10/23/04   Shrewsbu            NJ   Exxon          27.00
               7      12/03/04   Hamilton Tp         NJ   Sunoco         37.65
               8      12/06/04   Feasterville        PA   Sunoco         21.75
               9      02/01/05   Trevose             PA   Sunoco         20.00
              10      02/15/05   Wall                NJ   Wawa           19.15   $240.60

 5. (PG-11)    1      10/08/04   WDC Union           DC   Corner Bak    $14.37
Information    2      10/08/04   Baltimore           MD   Double TT      43.81
Technology     3      10/09/04   Columbia            MD   Hunan Rest     22.52
  Systems      4      10/08/04   Columbia            MD   Mad City        3.52
               5      10/09/04   Columbia            MD   Mad City       16.75
               6      10/10/04   Columbia            MD   ExxonMobil     18.84
               7      10/10/04   Columbia            MD   Chicken Ou     16.08
               8      11/09/04   Frederick           MD   ExxonMobil     26.97
               9      11/14/04   Columbia            MD   Amoco Oil      23.45
              10      11/12/04   Hanover             MD   Golden Cor     31.93
              11      11/12/04   Columbia            MD   ExxonMobil     13.08
              12      11/15/04   Washington          DC   Gourmet St      9.44
              13      11/16/04   WDC Union           DC   Corner Bak      4.82
              14      11/17/04   Washington          DC   Sbarro          3.74
              15      11/17/04   Columbia            MD   ExxonMobil     13.02




                                                24
   Appendix B

Employee/         Travel Card Charges Incurred          Merchant              Sub
 Office     No.       Date        City       State       Name       Amount    Total
   5.       16      11/18/04 Annapolis       MD      7-Eleven        $11.19
Continued   17      11/19/04 Annapolis       MD      7-Eleven         24.55
            18      11/19/04 Columbia        MD      Char Deli        18.26
            19      11/21/04 Columbia        MD      ExxonMobil       11.72
            20      11/21/04 Annapolis       MD      7-Eleven          8.73
            21      11/19/04 Washington       DC     Amtrak           40.00
            22      11/22/04 Columbia        MD      Hunan Res        13.81
            23      11/22/04 Columbia        MD      ExxonMobil        6.35
            24      11/22/04 Elkridge        MD      Bagel Bin        14.08
            25      11/25/04 New York         NY     Sylvia Rest      99.37
            26      11/26/04 Westampton       NJ     Amoco Oil        21.25
            27      11/27/04 Hanover         MD      BudgetRent      139.88
            28      11/27/04 Columbia        MD      ExxonMobil       10.91
            29      11/26/04 Elizabeth        NJ     I Hop            32.33
            30      11/26/04 Newark           NJ     Days Inn         90.35
            31      11/29/04 Columbia        MD      Amoco Oil        17.20
            32      12/01/04 Washington       DC     Gourmet St        7.69
            33      12/01/04 WDC Union        DC     Corner Bak        3.72
            34      12/01/04 WDC Union        DC     Corner Bak        4.81
            35      12/02/04 Columbia        MD      ExxonMobil       11.62
            36      12/02/04 Columbia        MD      Mai Kabob        19.82
            37      12/12/04 Hanover         MD      Golden Cor       27.67
            38      12/12/04 Columbia        MD      ExxonMobil       14.94
            39      12/14/04 Columbia        MD      ExxonMobil       20.82
            40      12/15/04 Columbia        MD      ExxonMobil        6.78
            41      12/31/04 Hanover         MD      BudgetRent      239.27
            42      12/31/04 Columbia        MD      Amoco Oil        18.08
            43      12/31/04 Columbia        MD      Amoco Oil        12.85
            44      01/04/05 Washington       DC     Starbucks         1.87
            45      01/04/05 Washington       DC     Gourmet St        7.69
            46      01/05/05 WDC Union        DC     Corner Bak        7.69
            47      01/06/05 Columbia        MD      ExxonMobil       12.50
            48      01/07/05 Washington       DC     Sbarro            8.28
            49      01/08/05 Columbia        MD      Papa Johns       16.79
            50      01/08/05 Columbia        MD      ExxonMobil       19.70
            51      01/08/05 Columbia        MD      ExxonMobil       26.58
            52      01/09/05 Columbia        MD      ExxonMobil       13.31
            53      01/09/05 Columbia        MD      ExxonMobil       11.18
            54      01/14/05 Columbia        MD      Amoco Oil        18.06
            55      01/14/05 WDC Union        DC     Corner Baker     10.54
            56      01/14/05 Washington       DC     Starbucks         4.46




                                           25
                                                                          Appendix B

Employee/          Travel Card Charges Incurred           Merchant                Sub
 Office      No.       Date        City       State         Name       Amount     Total
   5.        57      01/16/05 Columbia        MD        ExxonMobil       $7.04
Continued    58      01/18/05 Annapolis       MD        7-Eleven         19.59
             59      03/05/05 Ellicott City   MD        Double T         64.93
             60      03/11/05 Columbia        MD        Amoco Oil         4.97
             61      03/11/05 Columbia        MD        Amoco Oil        18.31
             62      03/11/05 Washington       DC       Mamma Lla         6.59
             63      03/15/05 Hanover         MD        Golden Cor       39.20
             64      03/23/05 Washington       DC       Amtrak           45.00   $1,574.67

6. (PG-09)    1      09/29/04   Washington         DC   Chinatown       $30.00
   Plant      2      09/29/04   Alexandria         VA   7-Eleven          4.04
Operations    3      09/30/04   Washington         DC   Subway            7.24
              4      10/01/04   Alexandria         VA   Mai Thai         32.00
              5      10/01/04   Alexandria         VA   Starbucks         3.26
              6      10/03/04   Alexandria         VA   Starbucks        14.02
              7      10/03/04   Chesapeake         MD   Abners Cr        56.57
              8      10/05/04   Springfield        VA   Subway            5.42
              9      10/05/05   Washington         DC   Subway            5.71
             10      10/05/05   Alexandria         VA   Franconia        25.00
             11      10/06/04   Washington         DC   Subway            5.82
             12      10/06/04   Alexandria         VA   ExxonMobil        2.09
             13      10/08/04   Washington         DC   Subway            5.71
             14      10/08/04   Alexandria         VA   Bun Billiard     18.49
             15      10/10/04   Alexandria         VA   7-Eleven          5.41
             16      10/10/04   Alexandria         VA   Chipotie          7.09
             17      10/11/04   Alexandria         VA   Subway            5.24
             18      10/11/04   Alexandria         VA   ExxonMobil        4.07
             19      10/11/04   Centrevi           VA   ExxonMobil        6.90
             20      10/11/04   Centrevi           VA   ExxonMobil       24.00
             21      10/10/04   Landover           MD   Fedexfield       10.00
             22      10/10/04   Landover           MD   Fedexfield        8.00
             23      10/14/04   Washington         DC   Pizeria Uno      59.00
             24      10/15/04   Kingstowne         VA   Panera Bre        8.05
             25      10/16/04   Alexandria         VA   Starbucks         4.57
             26      10/16/04   Manassas           VA   McDonald’s        5.55
             27      10/17/04   Alexandria         VA   7-Eleven          4.89
             28      10/17/04   Alexandria         VA   Franconia        24.00
             29      10/19/04   Alexandria         VA   Starbucks         2.73
             30      10/17/04   Washington         DC   FADO             50.00
             31      10/19/04   Alexandria         VA   ExxonMobil        4.07
             32      10/19/04   Alexandria         VA   Chipotie          7.09



                                              26
   Appendix B

Employee/         Travel Card Charges Incurred         Merchant                Sub
 Office     No.       Date        City       State        Name       Amount    Total
   6.       33      10/21/04 Alexandria       VA     Starbucks         $5.20
Continued   34      10/21/04 Alexandria       VA     ExxonMobil         2.09
            35      10/30/04 Kingstowne       VA     Panera Bread       7.83
            36      10/29/04 Washington       DC     Station Grill     30.04
            37      10/29/04 Alexandria       VA     ExxonMobil         2.09
            38      10/29/04 Alexandria       VA     7-Eleven           3.72
            39      10/31/04 Alexandria       VA     Starbucks          3.36
            40      10/31/04 Alexandria       VA     ExxonMobil         2.09
            41      10/31/04 Alexandria       VA     Chipotle           7.09
            42      11/02/04 Washington       DC     Subway             5.49
            43      11/03/04 Washington       DC     Starbucks          4.29
            44      11/03/04 Alexandria       VA     ExxonMobil         4.07
            45      11/04/04 Alexandria       VA     Chipotle           7.19
            46      11/05/04 Washington       DC     Subway             7.25
            47      11/07/04 Kingstowne       VA     Panera Bread       7.28
            48      11/09/04 Alexandria       VA     Starbucks          4.10
            49      11/09/04 Alexandria       VA     Starbucks          1.63
            50      11/10/04 Alexandria       VA     Starbucks          6.25
            51      11/10/04 Washington       DC     Pizeria Uno       50.00
            52      11/15/04 Alexandria       VA     Starbucks          6.93
            53      11/15/04 Alexandria       VA     Panera Bread       8.29
            54      11/16/04 Alexandria       VA     OS Place          10.68
            55      11/17/04 Alexandria       VA     Franconia         20.00
            56      11/18/04 Alexandria       VA     ExxonMobil         5.65
            57      11/20/04 Alexandria       VA     Starbucks          5.20
            58      11/19/04 Alexandria       VA     ExxonMobil         5.86
            59      11/20/04 Alexandria       VA     ExxonMobil         3.34
            60      11/21/04 Alexandria       VA     ExxonMobil         2.09
            61      11/21/04 Alexandria       VA     Chipotle           5.78
            62      11/23/04 Alexandria       VA     Macaroni Gr       45.31
            63      11/24/04 Alexandria       VA     Starbucks          3.36
            64      11/26/04 Benton Har       MI     Sophie House      37.00
            65      11/28/04 Clyde            OH     Hmshost            5.39
            66      11/29/04 Alexandria       VA     Starbucks          3.36
            67      12/01/04 Alexandria       VA     Starbucks          5.20
            68      12/01/04 Alexandria       VA     Chipotle           8.40
            69      12/02/04 Alexandria       VA     Café Salsa        48.77
            70      12/02/04 Washington       DC     AuBon Pain        12.82
            71      12/04/04 Washington       DC     Starbucks          3.96
            72      12/04/04 Alexandria       VA     ExxonMobil         2.09
            73      12/05/04 Alexandria       VA     Starbucks          3.83




                                           27
                                                                        Appendix B

Employee/          Travel Card Charges Incurred          Merchant               Sub
 Office      No.       Date        City       State        Name      Amount     Total
   6.         74     12/05/04 Alexandria       VA     Baja Mex         $9.59
Continued     75     12/06/04 Alexandria       VA     ExxonMobil        5.65
              76     12/08/04 Washington       DC     TGIFridays       29.00
              77     12/12/04 Alexandria       VA     ExxonMobil        2.09
              78     12/12/04 Alexandria       VA     ExxonMobil       24.00
              79     12/13/04 Washington       DC     CapitalBBQ       33.58
              80     12/14/04 Washington       DC     WMATA Ex         20.00
              81     12/14/04 Washington       DC     Cheesecake       25.22
              82     12/16/04 Alexandria       VA     ExxonMobil        3.55
              83     12/16/04 Washington       DC     AuBonPain         8.76
              84     12/17/04 Washington       DC     ExxonMobil        5.01
              85     12/20/04 Washington       DC     Starbucks         3.52
              86     12/19/04 Alexandria       VA     Chipotle          5.78
              87     12/20/04 Alexandria       VA     ExxonMobil        3.55
              88     12/22/04 Alexandria       VA     Starbucks         3.36
              89     12/22/04 Alexandria       VA     Bun Billiard     19.00
              90     12/27/04 Edwardsburg       MI    Anglers Inn      37.00
              91     01/02/05 Hudsonville       MI    Amoco Oil         9.00
              92     01/03/05 Verona            PA    Sunoco           15.75
              93     01/03/05 Clyde            OH     Hmshost tp        5.65
              94     01/03/05 Maumee           OH     Shell Oil        13.85
              95     01/05/05 Alexandria       VA     Franconia        22.50
              96     01/07/05 Alexandria       VA     Starbucks         3.36
              97     01/10/05 Washington       DC     Dubliner         15.00
              98     01/11/05 Washington       DC     Starbucks         3.52
              99     01/11/05 Washington       DC     Subway            7.14
             100     01/12/05 Washington       DC     Dubliner         15.00
             101     01/12/05 Alexandria       VA     Franconia        23.00
             102     01/15/05 Washington       DC     McDonald’s        6.04
             103     01/14/05 Alexandria       VA     Pizeria Uno      34.00
             104     01/16/05 Alexandria       VA     Win Buffet       11.50
             105     01/18/05 Alexandria       VA     Starbucks         5.09
             106     01/18/45 Alexandria       VA     ExxonMobil        2.09   $1,301.55

7. (PG-09)    1      11/22/04   Arlington     VA      Flyer Taxi      $33.65
   Plant      2      01/13/05   Pittsfield    MA      Crown Plaza      94.34
Operations    3      01/12/05   Pittsfield    MA      Asters           32.00
              4      01/13/05   Pittsfield    MA      Deweys           12.00     $171.99
 Totals      218                                                               $4,952.90




                                             28
          Appendix C. Acronyms Used in the Report

A/OPC   Agency/Organization Program Coordinator
ATM     Automated Teller Machine
BoA     Bank of America
CFO     Chief Financial Officer
FTR     Federal Travel Regulations
FY      Fiscal Year
GPO     Government Printing Office
GSA     General Services Administration
M&IE    Meals and Incidental Expenses
OIG     Office of Inspector General
PG      Printing Office Grade
POV     Privately Owned Vehicle
SLS     Senior Level Service




                                 29
Appendix D. Management’s Response




               30
Appendix D




             31
     Appendix D




32
Appendix D




             33
     Appendix D




34
                   Appendix E. Status of Recommendations


Recommendation No.        Resolved   Unresolved   Open/ECD*   Closed
        1                    X                     10/01/05
        2                    X                     12/31/05
        3                    X                     10/31/05
        4                    X                     11/15/05
        5                    X                     12/31/05
        6                    X                     12/31/05
        7                    X                                09/30/05
        8                    X                     12/31/05
        9                    X                                09/30/05
       10                    X                     12/31/05

*Estimated Completion Date.




                                        35
                      Appendix F. Report Distribution

Government Printing Office

Public Printer
Deputy Public Printer
Chief Financial Officer
Chief Human Capital Officer
Chief Information Officer
Co-Director, Office of Innovation and New Technology
Co-Director and Chief Technical Officer, Office of Innovation and New Technology
Chief of Staff
   Deputy Chief of Staff
   Assistant Chief of Staff for Analysis
Director, Congressional Relations
Director, Equal Employment Opportunity
Director, New Business Development
Director, Public Relations
Director, Security Services
General Counsel
Law Librarian
Managing Director, Customer Services
Managing Director, Plant Operations
Superintendent of Documents


Non-GPO Federal Organizations and Individuals

GPO Audit Advisory Committee


Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees

Chairman, Joint Committee on Printing
Vice Chairman, Joint Committee on Printing




                                         36
Major Contributors to the Report
Joe Verch, Supervisory Auditor

Patricia Mitchell, Auditor-in-Charge




                                       37
